DOE/IG-0496




        AUDIT
       REPORT



                                 SALE OF ENRICHED URANIUM AT THE
                                     FERNALD ENVIRONMENTAL
                                      MANAGEMENT PROJECT




                                              FEBRUARY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                              February 27, 2001


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "Sale of Enriched Uranium at the Fernald
               Environmental Management Project"


BACKGROUND

In October 1997, the prime contractor at the Fernald Environmental Management Project (Fernald), Fluor
Fernald, Inc. (Fluor), accepted competitive bids for the sale of 978 metric tons of enriched uranium located
at Fernald. For this sale, Fluor was required to repackage, weigh, sample, and deliver the material to the
winning bidder on the Department of Energy's (Department) behalf. The Department authorized Fluor to
offset costs that were directly related to the sale and return the net proceeds to the U.S. Treasury (Treasury).
Fluor estimated that the sale would realize net proceeds of $5 million to $7 million for return to the
Treasury. This was based on projected sales revenue of $10.5 million.

The objective of this audit was to determine whether the Department returned proceeds from the sale of
enriched uranium to the Treasury.

RESULTS OF AUDIT

Although Fluor estimated that $5 million to $7 million would be realized from the sale of the enriched
uranium, only $76,000 in proceeds was returned to the Treasury. The audit disclosed that Fluor offset some
of the sale proceeds with costs that were not directly related to the sale. In other instances, we identified
costs incurred by Fluor that could have been avoided. This occurred because (1) Fluor did not comply with
Department policy for offsetting proceeds from the asset sales, and (2) the Ohio Field Office (Field Office)
did not provide adequate oversight and appropriate contractor performance incentives for the project. In
our judgment, had this process been effectively managed, the Department could have returned an additional
$3.6 million to the Treasury.

In the report, we also questioned award fee payments by the Field Office to Fluor of $675,430. Since Fluor
spent four times more than originally estimated, this fee appeared excessive.

The report included recommendations to address the concerns raised regarding this and future asset sales.

MANAGEMENT REACTION

Management concurred with the recommendations and agreed to take corrective actions. The Field Office
has completed an analysis of the questioned costs and is in the process of deobligating $194,275 for return
to the Treasury. However, the Field Office concluded that about $3.4 million of the questioned costs were
allowable based on criteria in the Federal Acquisition Regulations (FAR), Cost Accounting Standards, and
Department policy regarding asset sales. In addition, management believed that the award fees paid to the
contractor were appropriate because Fluor met the shipment schedule for the sales project and because the
sale was in the best interest of the Department.
                                                  -2-


We disagree with management's conclusion regarding the $3.4 million in offset costs. The question
of whether these costs met the allowability and allocability tests of the Federal Acquisition
Regulation or whether the costs were allowable under the terms of Fluor's management contract, both
of which form the primary basis of management's position, are not relevant to this matter. The main
point in our report was that there was not a clear audit trail showing that the costs were necessary or
that they were directly related to the sale. Unless such tests have been successfully met, it is, in our
view, inappropriate to offset the costs against proceeds from the sale.

With regard to the award fee, we recognize that the Department did not include project cost
effectiveness as a formal contractor performance measure. However, as noted in the report, Fluor's
actual project costs were four times greater than originally estimated. By most reasonable standards,
this would be viewed as unacceptable performance which should have been reflected in the award
fee.

While we are concerned with the instant case regarding uranium sales at Fernald, the more pressing
issue is how the Department will handle such sales prospectively. We were informed by responsible
officials that similar asset sales would be occurring in the near future as the Department eliminates
unneeded asset inventories. We believe that the potential magnitude of such sales requires that the
Department's procedures be strictly followed to ensure that the potential benefits of selling excess
inventories are fully realized.

Attachment

cc: Acting Assistant Secretary for Environmental Management
SALE OF ENRICHED URANIUM AT THE FERNALD
ENVIRONMENTAL MANAGEMENT PROJECT

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 1


               Proceeds Returned to U.S. Treasury

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................6


               Appendices

               Scope and Methodology.............................................................9

               Prior Audit Reports ..................................................................10
OVERVIEW

INTRODUCTION AND   When the production of feed materials1 ceased at the Fernald
OBJECTIVE          Environmental Management Project (Fernald) in 1989, and the mission
                   changed from production to environmental restoration, approximately
                   13,670 metric tons of nuclear materials had accumulated at the site.
                   The Department of Energy (Department) considered several options to
                   dispose of the material, including transferring it to other Departmental
                   facilities for programmatic use, selling material with market value to
                   the private sector, and disposing of some of the material as waste.

                   In Fiscal Year (FY) 1997, the Department's prime contractor at Fernald,
                   Fluor Fernald, Inc. (Fluor), obtained the necessary reviews and
                   approvals required for the sale of a portion of the nuclear material. The
                   competitive bidding process carried out by Fluor concluded in October
                   1997 with the sale of a total of 978 metric tons of enriched uranium.
                   Fluor was required to repackage, weigh, sample, and deliver the
                   material. Fluor was authorized to offset costs that were directly related
                   to these activities and return the net proceeds to the U.S. Treasury
                   (Treasury). Based on the projected sales revenue of $10.5 million,
                   Fluor estimated that it would realize net proceeds of $5 million to $7
                   million for return to the Treasury.

                   The objective of this audit was to determine whether the Department
                   returned proceeds from the sale of enriched uranium to the Treasury.

CONCLUSIONS AND    The Department did return about $76,000 in proceeds from the sale of
OBSERVATIONS       enriched uranium to the Treasury. However, some of the proceeds were
                   offset with costs that were not directly related to the sale or were
                   avoidable. This occurred because (1) Fluor did not comply with
                   Department policy for offsetting proceeds from the asset sales, and
                   (2) the Ohio Field Office (Field Office) did not provide adequate
                   oversight and appropriate performance incentives for the project. As a
                   result, at least $3.6 million in proceeds was not returned to the
                   Treasury. Also, the Field Office should not have paid Fluor $675,430
                   in award fees, since the project was not completed within budget.




                   1
                    Feed materials were uranium products that were supplied to other defense-related
                   facilities within the Department of Energy complex.


Page 1                                                               Introduction and Objective
         This audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                                    (Signed)
                                             Office of Inspector General




Page 2                                         Conclusions and Observations
PROCEEDS RETURNED TO U.S. TREASURY




Offsets to Proceeds    Although the Department did return $76,051 in proceeds from the sale
Were Not Appropriate   of uranium to the Treasury, Fluor offset some of the proceeds with costs
                       that were not directly related to the sale or were avoidable. We
                       reviewed the costs incurred for the project and identified about
                       $3.6 million in costs that should not have been offset against the
                       proceeds. These costs are summarized below.

                            •   Fluor charged $1,375,493 to the uranium sales project that
                                was not directly related to the sale. For example, a portion of
                                labor costs associated with warehousing, surveillance, and
                                packaging of the nuclear material to be stored on-site was
                                allocated to the sales project. These labor costs could not be
                                traced to timesheets or other auditable records to verify a
                                direct relationship to the repackaging, weighing, sampling,
                                and delivery of the sales product.

                            •   Fluor charged $61,000 to the uranium sales project for
                                engineering services performed for another project at Fernald.
                                The costs incurred for the other project were transferred to the
                                uranium sales account after the other project's account was
                                closed.

                            •   The Department reimbursed Fluor $1,272,095 for analytical
                                services performed by a Departmental laboratory that could
                                have been paid by the customer. During contract negotiations,
                                the customer proposed to pay a fixed cost for packaging and
                                analytical services to be performed by Fluor. Subsequently,
                                the customer requested to have an independent laboratory
                                perform analytical services rather than have Fluor perform
                                them. Fluor agreed to the independent laboratory, but was
                                reluctant to accept the customer's original fixed price for the
                                services without knowing how much the independent
                                laboratory services would cost. The customer agreed to
                                reconsider the original fixed amount to be paid when the
                                independent laboratory's cost information became available.
                                Even though the customer was willing to consider additional
                                laboratory costs, Fluor did not request additional payment.




Page 3                                                                      Details of Finding
             •    Fluor paid $552,939 in excessive architect and engineering
                  (A-E) costs for the T-Hopper Turner2. A-E costs were more
                  than twice the original estimate and about 80 percent of
                  construction cost. According to one of its representatives,
                  the engineering firm's experience is that A-E costs are
                  generally around 20 percent of the construction costs. Using
                  that guideline, we determined that the A-E cost should have
                  been about $168,800, as compared to the actual cost of
                  $721,739.

             •    Fluor incurred at least $168,984 in unproductive labor costs.
                  The T-Hopper Turner was shut down for 5 weeks beginning
                  in June 1998, after being damaged due to operator error.
                  Operators continued to charge time to the uranium sales
                  project, including overtime, while the T-Hopper Turner was
                  inoperable. In fact, the average hours charged weekly to the
                  project increased slightly during this period. In another
                  instance, packaging was halted for one week because the
                  building needed to be relamped. Operators could not
                  package the product until maintenance workers were
                  available to replace the lights. These unproductive periods
                  were charged to the sales project.

             •    The Field Office overpaid the Oak Ridge Operations Office
                  $194,275 for analytical services provided by Lockheed
                  Martin Energy Systems in Oak Ridge, Tennessee. In
                  FY 1998, the Field Office transferred about $1.4 million to
                  the Oak Ridge Operations Office for analytical services
                  provided by Lockheed Martin Energy Systems. The actual
                  cost was around $1.2 million. In May 2000, Fluor asked the
                  Field Office to request a refund for $194,275. However, as
                  of November 2000, this request had not been made.




         2
           The T-Hopper Turner was a device designed to remove enriched uranium from
         the T-Hopper storage containers. When full, the T-Hoppers weighed around
         12,000 pounds, and needed to be turned over to allow the contents to flow out.
         Thus, Fluor had to design and construct the T-Hopper Turner to transfer the
         containers into drums.


Page 4                                                             Details of Finding
Proceeds Must Be              Federal Acquisition Regulation (FAR) Part 45.610-3, Proceeds of
Returned to the Treasury      Sales, stipulates that proceeds from the sale of Government-owned
                              materials be returned to the Treasury. Specifically, the FAR states
                              "Proceeds of any sale are to be credited to the Treasury of the United
                              States as miscellaneous receipts, except where the contract or any
                              subcontract thereunder authorizes the proceeds to be credited to the
                              price or cost of the work."

                              In order to achieve the President's goal of a balanced budget, the
                              Secretary of Energy established a goal in 1996 to return $75 million
                              to the Treasury through the sale of assets that no longer contribute to
                              various missions. On May 31, 1996, the Department's Chief
                              Financial Officer issued a memorandum directing Departmental
                              elements to deposit net proceeds from asset sales in the General Fund
                              of the Treasury as miscellaneous receipts. The memorandum stated
                              that in order for a cost to be offset against proceeds, it must be clear
                              in an auditable trail that it is directly related to the sale.

Fluor Did Not Comply With     The Department only returned $76,051 to the Treasury because
Policy and Field Office Did   (1) Fluor did not comply with Department policy for offsetting
Not Provide Oversight or      proceeds from the asset sales, and (2) the Field Office did not
Performance Incentives        provide adequate oversight and appropriate performance incentives
                              for the project.

                              Fluor did not comply with the Department's policy for offsetting
                              proceeds from the sale of assets. Contrary to the Department's May
                              1996 guidance, Fluor offset proceeds from the sale of enriched
                              uranium with costs that were not directly related to the sale or were
                              avoidable. For instance, Fluor allocated costs to the sales project
                              based on managers' estimates of the resources used without evidence
                              that the costs were directly related to the sales project. Further, Fluor
                              was not diligent in ensuring that avoidable costs were not incurred
                              and charged to the project.

                              Also, the Field Office did not provide adequate oversight or
                              appropriate performance incentives to ensure that Fluor avoided
                              unnecessary expenses for the project. Fluor estimated that it would
                              cost $2.4 million to repackage, weigh, sample and deliver the
                              product, and anticipated that it would realize $5 million to $7 million
                              in net proceeds from the sale. However, the Field Office did not
                              evaluate Fluor's cost estimate or use the estimate to monitor costs.
                              The Field Office received monthly variance reports from Fluor


Page 5                                                                            Details of Finding
                           which indicated that the project was exceeding the established cost
                           estimates. Yet, the Field Office was not aware that the net proceeds
                           from the sale would be reduced to about $76,000 until months after
                           the project was completed. The final shipment was made to the
                           customer in February 1999, but the Field Office did not ask Fluor to
                           provide detailed information on the sales project expenses until
                           December 1999.

                           Further, the Field Office did not develop performance incentives
                           giving adequate consideration to cost. The Department developed
                           performance measures related to the sales project in accordance with
                           the Governmental Performance and Results Act of 1993. However,
                           the performance measures were based primarily on meeting specific
                           deadlines without adequate consideration of costs. For example,
                           Fluor received a performance award for shipping enriched uranium
                           in accordance with the sales agreement schedule, but was not
                           penalized for overrunning the project.

The Department Could       The Department returned $3.6 million less than it should have to the
Have Returned More         Treasury. More proceeds could have been returned had the Field
Proceeds to the Treasury   Office monitored project costs and developed incentives for Fluor to
                           perform the uranium sales project in a cost-effective manner.
                           Further, by improving oversight, the Field Office could ensure that a
                           sale of enriched uranium currently in progress does not incur the
                           same problems.

                           Also, the Field Office should not have paid Fluor $675,430 in award
                           fees, since the project was not completed within budget.
                           Additionally, Fluor was awarded $144,341 for waste management
                           activities, which included an excellent rating on the T-Hopper
                           project. Award fees were paid by the Field Office, and not deducted
                           from the proceeds.

RECOMMENDATIONS            We recommend that the Manager, Ohio Field Office:

                           1. Require Fluor to implement the Department's policy of charging
                              only costs directly related to the sales project;

                           2. Review the avoidable project costs discussed in this report,
                              recover overpayments to Fluor and the Oak Ridge Operations
                              Office considered to be unallowable, and return recovered
                              amounts to the U.S. Treasury in accordance with the Federal
                              Acquisition Regulation and Department policy;


Page 6                                                    Recommendations and Comments
             3. Ensure that Field Office personnel monitor Fluor projects more
                closely and initiate timely corrective actions to ensure project
                costs are directly related and necessary;

             4. Ensure that contractor performance measures provide incentives
                for cost containment as well as timeliness; and,

             5. Ensure that proceeds from future sales of assets are handled in
                accordance with Departmental guidance.

MANAGEMENT   Management concurred with the recommendations and agreed to
REACTION     initiate corrective actions. Specifically, management will require
             Fluor to comply with Departmental policy concerning the sale of
             assets, and will ensure that project costs are directly related and
             necessary by requiring Fluor to provide an action plan which
             demonstrates compliance with policy. Further, management's new
             contract with Fluor, awarded in December 2000, has a fee structure
             that provides incentives for completing the job ahead of schedule at
             or below target costs.

             Regarding the recommendation to review the avoidable project costs
             discussed in the report and recover overpayments, management has
             completed its analysis, and is in the process of deobligating $194,275
             for return to the U.S. Treasury. We provided documentary evidence
             to management that, in our opinion, supports the conclusion that a
             clear audit trail did not exist to show the questioned costs were
             directly related to the sale or were avoidable. Management obtained
             additional explanations from personnel involved in the sale and
             determined that $3,430,511 of the questioned costs were allowable
             based on criteria in the Federal Acquisition Regulation (FAR), Cost
             Accounting Standards, and Department policy regarding the sale of
             assets. Management cites FAR 31.201-4, "Determining
             Allocability" which states that a cost is allocable if it benefits the
             government contract and can be distributed in reasonable proportion
             to the benefits received.

             Management stated that, in retrospect, separate and unique charge
             numbers should have been established to collect all costs associated
             with the sale. Nevertheless, management believed the allocated costs
             were correctly offset against the sale proceeds based on criteria in the
             FAR and applicable Departmental policy. In addition, management
             believed that the award fees paid to the contractor were appropriate
             because Fluor met the shipment schedule for the sales project and
             because the sale was in the best interest of the Department.

Page 7                                       Recommendations and Comments
AUDITOR COMMENTS   Management's proposed actions were responsive to recommendations 1,
                   3, 4, and 5. However, we disagree with its action on recommendation 2
                   that $3,430,511 in questioned costs were allowable as offsets against
                   the sale. We did not question whether the costs met the allowability
                   and allocability tests of the FAR, or whether the costs were allowable
                   under the terms of Fluor's management contract. Instead, we
                   questioned whether a clear audit trail existed showing that the costs
                   were necessary and directly related to the sale, and whether the costs
                   should have been offset against proceeds from the sale for return to the
                   Treasury. In responding to the draft report, management did not
                   provide any additional evidence to change our opinion, which was that,
                   these costs did not meet the Department's criteria and should not have
                   been offset against the proceeds from the sale. Further, we believe the
                   fees should not have been awarded on the sales project since Fluor
                   spent four times more than originally estimated.




Page 8                                             Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from August 8, 2000, to November 29, 2000,
              at the Ohio Field Office in Miamisburg, Ohio, and the Fernald
              Environmental Management Project in Fernald, Ohio. The scope of the
              audit included costs charged to the uranium sales project between July
              1996 and September 1999.

METHODOLOGY   To accomplish the audit objective, we:

                   •    Examined the terms and conditions established in the sales
                        agreement between Fluor and the customer;

                   •    Reviewed FAR provisions and Departmental guidance
                        regarding the sale of assets;

                   •    Analyzed Fluor's estimate of costs, compared it to actual
                        costs, and examined the reasons for major discrepancies;

                   •    Determined the reasonableness of costs charged to the sales
                        project for the major cost categories; and,

                   •    Held discussions with Department and contractor personnel
                        regarding the sales project.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of costs incurred on the sales project from
              July 1996 through September 1999. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. The Office of Inspector
              General has previously conducted reliability assessments on the system
              from which the cost data was derived and deemed it to be reliable.
              Therefore, we did not assess the reliability of the data.

              We held an exit conference with the Deputy Director, Fernald
              Environmental Management Project, on February 8, 2001.




Page 9                                                     Scope and Methodology
Appendix 2

                                     PRIOR AUDIT REPORTS


The Office of Inspector General has issued the following audit reports addressing the sale or disposition of
excess property:

Report DOE/IG-0475, Non-Nuclear Weapons Parts at the Rocky Flats Environmental Technology Site,
dated June 29, 2000. The objective of the audit was to determine if the Rocky Flats Field Office and its
contractor, Kaiser-Hill Company, LLC, accounted for and properly disposed of the remaining weapons
parts. The audit raised concerns about the adequacy of controls over classified and unclassified weapons
parts at the Rocky Flats Field Office.

Report CR-B-99-02, Management of Unneeded Materials and Chemicals, dated September 30, 1999. The
objective of the audit was to determine if the Department efficiently disposed of its unneeded materials.
The audit determined that the Department had not aggressively pursued the disposition or reuse of large
quantities of unneeded inventories at many contractor locations.

Report DOE/IG-0450, The U.S. Department of Energy's Non-Nuclear Materials Inventory at the Kansas
City Plant, dated July 26, 1999. The audit objective was to determine if Department and contractor officials
were identifying and disposing of non-nuclear materials inventory for which there was no current or future
designated need. The audit concluded that the Department had not made a final decision on whether to
retain or dispose of about $275 million of non-nuclear materials for which there was no current or future
designated need.




Page 10                                                                                 Prior Audit Reports
                                                                               IG Report No.: DOE/IG-0496
                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
